 DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
                                                                          (617) 565-2684

November 2, 2011

Report Number: A-01-11-00524

Kathy Milovac
National Government Services, Inc.
Contract Administration, Deputy Director
8115 Knue Road
Indianapolis, IN 46205

Dear Ms. Milovac:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Outpatient Claims Processed by National
Government Services, Inc., That Included Procedures for the Insertion of Multiple Units of the
Same Type of Medical Device for Calendar Years 2008 and 2009. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-11-00524 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                             for Audit Services

Enclosure
Page 2 – Ms. Kathy Milovac


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




      REVIEW OF OUTPATIENT
  CLAIMS PROCESSED BY NATIONAL
GOVERNMENT SERVICES, INC., THAT
  INCLUDED PROCEDURES FOR THE
 INSERTION OF MULTIPLE UNITS OF
THE SAME TYPE OF MEDICAL DEVICE
IN CALENDAR YEARS 2008 AND 2009




                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-01-11-00524
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                               EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program. CMS employs Medicare contractors, including National Government Services,
Inc. (NGS), to process and pay hospital outpatient claims using the Fiscal Intermediary
Shared System (FISS).

CMS implemented an outpatient prospective payment system (OPPS) for hospital
outpatient services. Under the OPPS, Medicare pays for hospital outpatient services on a
rate-per-service basis that varies according to the ambulatory payment classification
group to which the service is assigned. Under the OPPS, outlier payments are available
when exceptionally costly services exceed established thresholds.

Common medical devices implanted during outpatient procedures include cardiac
devices, joint replacement devices, and prosthetics. Generally, a provider implants only
one cardiac device during an outpatient surgical procedure. Under OPPS, payments to
hospitals for medical devices are “packaged” into the payment for the procedure to insert
the device. Hospitals are required to report the number of device units and related
charges accurately on their claims. The failure to report device units and related charges
accurately could result in incorrect outlier payments.

Our audit covered $273,805 in Medicare outlier payments to hospitals for 101 claims for
outpatient procedures that included the insertion of more than 1 of the same type of
medical device. The 101 claims had dates of service during calendar years (CY) 2008
and 2009.

OBJECTIVE

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by NGS that included procedures for the insertion of multiple units of
the same type of medical device.

SUMMARY OF FINDINGS

Of the 101 claims that we reviewed, Medicare paid 58 correctly for outpatient claims
processed by NGS that included procedures for the insertion of multiple units of the same
type of medical device. However, for the remaining 43 claims, Medicare did not pay
hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments.

For the 43 claims, NGS made overpayments to hospitals totaling $174,636. Incorrect
payments occurred because hospitals had inadequate controls to ensure that they billed
accurately for claims that included the insertion of medical devices. In addition, Medicare

                                             i
payment controls in the FISS were not always adequate to prevent or detect incorrect
payments.

RECOMMENDATIONS

We recommend that NGS:

   •   recover the $174,636 in overpayments for 43 inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS agreed with our findings and
recommendations and outlined steps for implementing our recommendations. NGS’s
comments are included in their entirety as the Appendix.




                                            ii
                                             TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
             Hospital Outpatient Prospective Payment System ............................................1
             Medical Devices................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope ................................................................................................................2
              Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PROGRAM REQUIREMENTS ................................................................................3

          PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY .............................4

          CAUSES OF INCORRECT PAYMENTS ................................................................4
               Inadequate Controls at Hospitals ...................................................................4
               Inadequate Medicare Payment Controls ........................................................4

          RECOMMENDATIONS ...........................................................................................4

          NATIONAL GOVERNMENT SERVICES, INC., COMMENTS ...........................5

APPENDIX

          NATIONAL GOVERNMENT SERVICES, INC., COMMENTS




                                                               iii
                                   INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act),
provides health insurance coverage to people aged 65 and over, people with disabilities,
and people with end-stage renal disease. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. Part B of Title XVIII provides supplementary
medical insurance for medical and other health services, including the coverage of
hospital outpatient services.

CMS contracted with National Government Services, Inc. (NGS), to, among other things,
process and pay claims submitted by hospital outpatient departments. NGS uses the
Fiscal Intermediary Shared System (FISS) for processing hospital claims. NGS processes
claims for Connecticut, Illinois, Indiana, Kentucky, Michigan, New York, Ohio, Virginia,
West Virginia, and Wisconsin.

Hospital Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the
Medicare, Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced
Budget Refinement Act of 1999, P.L. No. 106-113, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS was
effective for services furnished on or after August 1, 2000. Under the OPPS, Medicare
pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). All services and items within an
APC group are comparable clinically and require comparable resources. Under the
OPPS, outlier payments are available when exceptionally costly services exceed
established thresholds.

Medical Devices

Common medical devices implanted during outpatient procedures include cardiac
devices, joint replacement devices, and prosthetics. Generally, a provider implants only
one cardiac device, such as a pacemaker or implantable cardioverter defibrillator, during
an outpatient surgical procedure.

Under the OPPS, payments to hospitals for medical devices are “packaged” into the
payment for the procedure to insert the device. Although separate payment is not made
for the device, hospitals are still required to report device charges on their claims.
Hospitals are required to report the number of device units and related charges accurately
on their claims. The failure to report device units and related charges accurately could
result in incorrect outlier payments.




                                             1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by NGS that included procedures for the insertion of multiple units of
the same type of medical device.

Scope

Our audit covered $273,805 in Medicare outlier payments to hospitals for 101 claims for
outpatient procedures that included the insertion of more than 1 of the same type of
medical device. The 101 claims had dates of service during calendar years (CY) 2008
and 2009.

Our objective did not require an understanding or assessment of the complete internal
control structures of hospitals or NGS. Therefore, we limited our review at hospitals to
the controls related to preparing and submitting Medicare claims for procedures that
included the insertion of selected medical devices. We limited our review at NGS to the
controls related to preventing or detecting Medicare overpayments to hospitals for
outpatient claims with overstated medical device units.

Our fieldwork included contacting NGS and the 53 hospitals that submitted the 101
claims in our review. We conducted our fieldwork from September 2010 through
February 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted hospitals’ outpatient paid claim data from CMS’s National Claims
        History file for CYs 2008 and 2009;

   •    developed computer applications to identify outpatient claims processed by NGS
        that included procedures for the insertion of multiple units of the same type of
        medical device and identified 101 claims;

   •    reviewed the hospitals’ itemized bills for 101 claims and selected beneficiaries’
        medical records to determine whether the hospitals submitted the claims with the
        correct device units and associated charges;

   •    reviewed CMS’s Common Working File claims history for the 101 claims to
        validate the results of our computer match and to verify that the selected claims
        had not been canceled;

                                             2
   •   contacted representatives of the 53 hospitals that submitted the claims to verify
       whether the claims were billed correctly and to determine the causes of
       noncompliance with Medicare billing requirements;

   •   contacted NGS to obtain an understanding of edits in the FISS and other controls
       intended to prevent or detect overpayments to hospitals;

   •   calculated the correct payments for claims that needed payment adjustments; and

   •   discussed the results of our review with NGS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

Of the 101 claims that we reviewed, Medicare paid 58 correctly for outpatient claims
processed by NGS that included procedures for the insertion of multiple units of the same
type of medical device. However, for the remaining 43 claims, Medicare did not pay
hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments.

For the 43 claims, NGS made overpayments to hospitals totaling $174,636. Incorrect
payments occurred because hospitals had inadequate controls to ensure that they billed
accurately for claims that included the insertion of medical devices. In addition, Medicare
payment controls in the FISS were not always adequate to prevent or detect incorrect
payments.

PROGRAM REQUIREMENTS

Section 1862 (a)(1)(A) of the Act states that no payment may be made under Part A or
Part B for any expenses incurred for items or services that are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning
of a malformed body member.

The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.

Federal regulations (42 CFR §419.43 (d)) provides for outlier payments for hospital
outpatient services, in addition to the prospective payment, when a hospital’s charges
exceed certain thresholds.


                                             3
PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY

Hospitals incorrectly billed medical device units for 43 of the 101 claims. These billing
errors led to overstated charges, resulting in excessive or unwarranted outlier payments
for 43 claims totaling $174,636.

                         An Example of Incorrectly Billed Units

       One hospital billed for two automatic implantable cardioverter defibrillator (AICD)
       units with charges that totaled $185,500. However, the hospital should have billed
       for one AICD unit with charges of $92,750. The additional charges for the second
       AICD unit resulted in an unwarranted outlier payment of $8,056 to the hospital.


CAUSES OF INCORRECT PAYMENTS

Inadequate Controls at Hospitals

The 28 hospitals that received incorrect payments had not established the necessary
controls to ensure that they billed the correct device units for outpatient claims processed
by NGS that included procedures for the insertion of medical devices. Officials of these
hospitals stated that their billing personnel had billed units incorrectly for one or more of
the following reasons:

   •    Personnel made isolated data entry errors.

   •    Multiple personnel mistakenly entered the same device charges on the same
        claim.

   •    Undetected flaws in the design or implementation of some billing systems caused
        some claims to be submitted with multiple medical device units.

Inadequate Medicare Payment Controls

Medicare payment controls were not always adequate to prevent or detect incorrect
payments. Specifically, CMS established, as part of its FISS prepayment controls, unit
amount thresholds for medically unlikely edits that are too high for certain medical
devices (e.g., currently, there is a two-unit threshold for pacemakers).

RECOMMENDATIONS

We recommend that NGS:

   •    recover the $174,636 in overpayments for the 43 inaccurate claims,




                                              4
   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS agreed with our findings and
recommendations and outlined steps for implementing our recommendations. NGS’s
comments are included in their entirety as the Appendix.




                                            5
APPENDIX
                     APPENDIX: NATIONAL GOVERNMENT SERVICES COMMENTS
                                                                   Page 1 of2

f*Nation:!~~:~meiit 	                                                                      Medicare 

   N:l tio na l Government Services, Inc.
   S[ [5 Knu' J{o:ld
   India n.1 polis, Indiana 46250- 1936
   A CMS COIl/me/ed Agel/ t



   October 17, 2011 



   Mr. Michael J. Armstrong 

   Regional Inspector General for Audit Services 

   Office of Inspector General 

   Office of Audit Services, Region I 

   Government Center 

   John F. Kennedy Federal Building 

   Boston, MA 02203 


   Report Number: A-OI-ll-00524 


   Dear Mr. Armstrong, 




   The following presents our response to the comments made in your report dated August 16, 2011: 


   Recommendatjon I - Recoyer the $ I74.636 in overpayments for the 43 inaccurate clai ms 

   We have researched the 43 claims involved. A summarization of the claim adjustments is listed below: 


        • 	 A recovery in the amount of $155,930.90 has been confirmed; this represents 33 of the 43 claims.
        • 	 lclaim adjustment resulted in a payable to the provider in the amount of $364.02.
        • 	 5 of the claims were for providers no longer serviced by NGS. These providers are in the 

            Virginia/West Virginia workload which transitioned to a new contractor, Palmetto, GBA. 

        • 	 4 claims had not been adjusted. All necessary data to process the adjustments for these claims was
             received by NGS on 10/05/2011 and the adjustments were initiated. As oftoday, 10/06/2011 the
             claims are at CWF. We will provide an updated spreadsheet with the recovery amounts upon
             finalization and recovery.

   Recommendation 2 - Continue to alert hosoitals of the importance of coding
   outpatient claims with the correct number of medical device units

   Provider Outreach & Education will offer Live and In Person sessions and expanding our discussion points
   for currently planned education on the hemophilia clotting factor. This education is starting immediately
   and will continue with webinars, etc. throughout the corning year. This topic is also being added to the
   NGS hospital SME team's education plan.

   NOTE: There are Virginia and West Virginia providers included in the review that will need to go to
   PGBA since this workload transitioned in April 2011.


   Recommendation 3 - Work wjth CMS to strengthen FISS prepayment edits revi s ing
   the unit amount thresholds for certain medical devices

   National Government Services is verifying that edits are in place to ensure unit amount thresholds are in
   place. Any unit thresholds that are not in place will be implemented. With research completed, it has been

                                                                                                 CAIS            L

                                                                                             Page 2 of2



confirmed that all the codes identified have an established number of maximum units and they are being 

checked on FISS. If the claim exceeds the maximum number of a1lowable units, the claim will be rejected. 

An of the codes that caused the claims identified on this audit to pay incorrectly are now being monitored 

to prevent a higher than allowable number of units to be paid. 




Sincerely yours, 

lsi Barbie WiI1iams 



Barbie Williams, 

Director NGS Operations Excellence 

